SEC.gov |  Contractor Lobbying Statute - 1994
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Contractor Lobbying Statute - 1994
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Contractor Lobbying Statute - 1994
Audit Report No. 223January 17, 1995
OBJECTIVES AND SCOPE
As required by 31 U.S.C. 1352, we evaluated Commission compliance with the lobbying disclosure requirements found there (see Background).  Our review included discussions with contracting staff in the Office of Administrative and Personnel Management (OAPM), and analysis of eleven fiscal year 1994 contracts subject to the requirements.
The audit was conducted during December 1994, in accordance with generally accepted government auditing standards.
BACKGROUND
In 31 U.S.C. 1352 (Public Law 101-121), Congress imposed restrictions on lobbying by those receiving Federal funds.       Section 1352 generally prohibits recipients of Federal contracts, grants, and loans from using appropriated funds to lobby the executive or legislative branches of the Federal government in connection with a specific contract, grant, or loan.  The statute requires recipients of Federal funds to disclose any lobbying, and to certify that appropriated funds were not used to lobby.   Agencies are required to submit to the Congress a semi-annual compilation of disclosure reports they receive.
Contracts, grants, loans, and cooperative agreements exceeding $100,000 are covered by the Act, which became effective on December 23, 1989.  Civil penalties for non-compliance range from $10,000 to $100,000.  Inspectors General are required to evaluate their agencies' compliance with the requirements.
Audit Results
We found that OAPM incorporated the appropriate Federal Acquisition Regulation clause in the eleven contracts we reviewed.  OAPM also submitted the required semi-annual reports on lobbying activities to the Congress during fiscal year 1994.  OAPM concurs with our findings.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us